National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001


                                                    August 3, 2009

TO:                 Assistant Administrator for Procurement

FROM:               Acting Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on Review of Wheeling Jesuit University Cost
                    Proposals (Report No. IG-09-020-Redacted; Assignment
                    No. S-09-002-00)


The Office of Inspector General (OIG) conducted a review of NASA’s oversight of
grants and cooperative agreements with Wheeling Jesuit University (WJU) in West
Virginia. Our objectives were to determine whether NASA adequately reviewed WJU’s
cost proposals for grants and cooperative agreements and to determine whether the cost
proposals complied with NASA and Federal policy regulations. We reviewed five grants
and cooperative agreements (both called agreements in this memo) between WJU and
NASA that were active or not closed 1 as of October 8, 2008. (See Enclosure 1 for details
for our scope and methodology.)

Executive Summary

We found that NASA inappropriately approved, obligated, and partially expended more
than $4 million of facility and administrative (F&A) costs 2 because NASA grant officers
in charge of the WJU agreements did not adequately review WJU’s cost proposals.
Specifically, the grant officers failed to note that WJU had included F&A costs as direct
costs in its cost proposals to NASA. During our interviews with NASA grant officers
assigned to review the WJU agreements, they stated that they were not sufficiently
familiar with the definitions and allocation of direct and F&A costs to adequately
exercise due diligence to ensure proposal costs were allowable, allocable, and reasonable
under the Office of Management and Budget (OMB) Circular A-21, “Cost Principles for
Educational Institutions” (Revised August 8, 2000) (Circular A-21).


1
    “Not closed” refers to agreements that have completed their period of performance but have not been
    closed administratively because of pending paperwork. These WJU agreements were within the 90-day
    timeframe following the period of performance to submit their final expense report with full project cost.
2
    According to the Office of Management and Budget, “Facilities” is defined as depreciation and use
    allowances, interest on debt associated with certain buildings, equipment and capital improvements,
    operation and maintenance expenses, and library expenses. “Administration” is defined as general
    administration and general expenses, departmental administration, sponsored projects administration,
    student administration and services, and all other types of expenditures not listed specifically under one
    of the subcategories of Facilities (including cross allocations from other pools).
                                                                                          2

According to Circular A-21, Direct costs can be identified specifically with a particular
agreement project, an instructional activity, or other institutional activity, or can be
directly assigned to such activities with a high degree of accuracy. F&A costs are
incurred for common or joint objectives and therefore cannot be identified readily and
specifically with a particular sponsored project, an instructional activity, or other
institutional activity. F&A costs are reimbursed to the institution on the basis of a
negotiated and approved F&A rate that limits allocable administrative costs to 26 percent
of modified total direct costs for educational agreements. By inappropriately approving
F&A costs as direct costs, NASA could be reimbursing WJU for administrative costs in
excess of the allocable Federal cap.

In addition, we determined that the NASA grant officers did not note that the cost
proposal for one of the five agreements, with a total value of $271,164, contained $4,501
in duplicative labor costs. Specifically, for three WJU staff members, labor costs were
included in two different areas of the proposal—100 percent of their salaries as
individual staff members with specific responsibilities; and an additional 5 percent for
two of the staff members and 35 percent for the other for “CET Management.” Although
the three individuals have dual roles within WJU, the grants officers should not have
accepted WJU’s proposal to charge more than 100 percent of their salaries to the NASA
agreement.

In our June 26, 2009, draft of this memorandum, we recommended that the Assistant
Administrator for Procurement provide NASA grant officers with training on Circular
A-21 cost principles to assist them in identifying administrative service center costs. We
also recommended that the Assistant Administrator for Procurement work with the
Department of Health and Human Services, Division of Cost Allocation (the Federal
agency responsible for negotiating and approving rates for F&A costs related to
educational agreements) and renegotiate WJU’s F&A rate for all Federal educational
grants and cooperative agreements, to ensure that administrative costs do not exceed the
allowable Federal reimbursement cap.

In commenting on the draft of this memorandum, the Assistant Administrator for
Procurement concurred with our recommendations to provide NASA grant officers with
training on Circular A-21 cost principles and to work with the Department of Health and
Human Services to renegotiate WJU’s F&A rate (see Enclosure 2). We consider
management’s proposed actions to be responsive. The recommendations are resolved
and will be closed upon completion and verification of management’s corrective action.

Background

NASA awards grants and cooperative agreements (agreements) under the authority of the
National Aeronautics and Space Act. 3 The agreements are awarded and administered in
accordance with NASA Procedural Requirements (NPR) 5800.1E, “NASA Grant and


3
    42 U.S.C. 2473(c)(5).
                                                                                            3

Cooperative Agreement Handbook,” October 19, 2000. NPR 5800.1E Section A requires
compliance with Circular A-21. In addition to addressing issues such as definitions,
applicability, deviations, and award requirements, the NPR states that the grant officer is
responsible for ensuring that costs charged to the agreement are allowable, allocable, and
reasonable under Circular A-21.

Circular A-21 notes that the cost of an agreement is comprised of the allowable direct
costs specific to performance of the agreement plus the allocable portion of allowable
F&A costs, less applicable credits. The tests of allowability under Circular A-21 are that
costs must be (1) reasonable; (2) allocable to the agreements, (3) treated consistently
through application of generally accepted accounting principles appropriate to the
circumstances, and (4) in compliance with any limitations or exclusions set forth in
Circular A-21 principles or in the agreement as to types or amounts of cost items. A cost
is allocable to an agreement if it (1) is incurred solely to advance work under the
sponsored agreement; (2) benefits both the sponsored agreement and other work of the
institution in proportions that can be approximated through reasonable methods, or (3) is
necessary to the overall operation of the institution and, in light of the principles, deemed
to be assignable in part to sponsored projects. Direct costs can be identified specifically
with a particular agreement project, an instructional activity, or other institutional
activity, or can be directly assigned to such activities with a high degree of accuracy.
F&A costs are incurred for common or joint objectives and therefore cannot be identified
readily and specifically with a particular sponsored project, an instructional activity, or
other institutional activity. F&A costs are reimbursed to the institution on the basis of a
negotiated and approved F&A rate.

Circular A-21 states that the recipient institution is responsible for ensuring proposed
costs are appropriate and provides a methodology for educational institutions to use in
arriving at a single F&A rate for each major institutional function (general and
departmental administration, student administration and services, etc.), and that rate is
used to allocate F&A costs to agreements. Each institution’s F&A rate process must be
appropriately designed to ensure that Federal agencies reimburse a fair percentage of the
institution’s F&A expense and do not subsidize F&A costs of other sponsors’ activities,
specifically activities sponsored by industry or foreign governments.

Each institution must submit their calculated F&A rate to the Department of Health and
Human Services, Division of Cost Allocation (HHS/DCA). HHS/DCA is responsible for
negotiating and approving the F&A rate to be applied to Federal grants and cooperative
agreements for all educational institutions on behalf of all Federal agencies. The F&A
rate is negotiated based on the institution’s F&A submission to HHS/DCA, and the
submissions must be compliant with Circular A-21 guidance. In their F&A submission,
the institution must show how they calculated the rate and, once approved, the rates are
used in determining each agreement’s allocable F&A costs. Circular A-21 limits the
allocable “administrative” expenses within the F&A rate to 26 percent of modified total
direct costs. Thus, WJU negotiated its F&A rate with HHS/DCA and its F&A rate is
applied to each of WJU’s Government-sponsored agreements.
                                                                                         4


NASA Agreements with WJU. In 1989, Congress designated WJU as the site for the
Robert C. Byrd National Technology Transfer Center (NTTC), and NASA established
the Erma Ora Byrd Center for Educational Technologies (CET) at WJU. NTTC
facilitates the transfer of technologies between NASA and other Federal organizations to
private industries, and CET manages several NASA projects such as the Classroom of the
Future (COTF), which serves as NASA’s national research and development site and
provides technology-based products and services that support NASA’s Educational
Program. WJU’s Sponsored Programs is the division responsible for management and
administration of NTTC and CET. NTTC and CET manage the following NASA five
agreements, active or not closed as of October 8, 2008, which had a combined value of
$15.6 million:

   •   NNX06AE26A (NTTC) is a cooperative agreement that provides services to
       transfer technology between the Government and private industries. Period of
       performance, September 1, 2006 – August 31, 2008; total value, $7,710,000.

   •   NNX08BA21A Phase II NASA Technology Transfer and Innovative Partnership
       Program (NTTC Phase II) is a cooperative agreement that also provides services
       to transfer technology between the Government and private industries. Period of
       performance, September 1, 2008 – August 31, 2009; total value, $2,044,000.

   •   NNX08AP15G (CET) Micronauts Education Simulator is a grant that provides an
       opportunity for students to participate in a standard classroom activity by
       providing hand-on activities based on NASA’s past and future space projects.
       Period of performance, August 1, 2008 – July 31, 2009; total value, $271,164.

   •   NNX08AJ71A (CET) Reshaping Education with 21st Century Technology
       (Classroom of the Future) is a cooperative agreement designed to develop
       NASA educational technology resources to improve math, science, geography,
       and technology education. Period of performance, March 3, 2008 –
       March 2, 2011; total value, $3,000,000.

   •   NNX08AP69G (NTTC) Health E West Virginia (HEALTHeWV) is a grant
       designed to develop electronic medical records to be implemented across West
       Virginia to improve health care quality, patient services, and patient safety.
       Period of performance, October 1, 2008 – September 30, 2009; total value,
       $2,576,054.

However, in developing its annual submissions to HHS/DCA, WJU did not include its
administrative costs (F&A costs) for management of these agreements. WJU instead
charged these F&A costs as direct cost to the NASA agreements. Specifically, WJU
allocated administrative expenses as direct costs through cost centers, such as the Finance
Service Center and the Combined Management Service Center; however, in accordance
with Circular A-21, these should have been considered F&A costs.
                                                                                                       5


NASA Grant Officers Reviewed and Approved Noncompliant Cost Proposals

We found that WJU submitted F&A costs as direct costs in the five cost proposals we
reviewed. NASA approved, obligated, and partially expended more than $4 million of
F&A costs because NASA grant officers lacked training on the cost principles in Circular
A-21 that would have enabled them to distinguish direct costs versus F&A costs. NASA
could be reimbursing WJU in excess of the OMB-established cap of 26 percent of
“administrative” expenses within the F&A rate. NPR 5800.1E states that the NASA grant
officer has overall responsibility for ensuring that the award is properly administered,
including technical, cost, and schedule aspects. Therefore, the grant officers are
responsible for reviewing the proposer’s estimated costs and identifying any item that
could be unallowable under the cost principles or that appears unreasonable or
unnecessary in accordance with Circular A-21.

WJU Costs Inappropriately Categorized

For the five cost proposals we reviewed, we identified and questioned the allowability of
categorizing as “direct costs” expenses listed under the following WJU cost centers:
   •   Finance Service Center - Various finance personnel who are responsible for grant and contract
       administration that includes accounting, procurement, and financial reporting. A percentage of
       the total cost is charged to both Federal and non-Federal grants based on a fair allocation.
   •   Combined Management Service Center - Various overall management personnel who are
       responsible for management of all sponsored projects. A percentage of the total cost is charged to
       both Federal and non-Federal grants based on a fair allocation.
   •   Center for Educational Technologies (CET) and National Technology Transfer Center (NTTC)
       Management Service Center - Various management personnel who are responsible for the
       executive management of the CET. A percentage of the total cost is charged to both Federal and
       non-Federal grants based on a fair allocation.
   •   CET and NTTC Institutional Service Center - Various personnel responsible for maintaining the
       overall CET and NTTC Web sites. A percentage of the total cost is charged to both Federal and
       non-Federal grants based on a fair allocation.

   •   CET and NTTC Computer Information Services (CIS)/Technical Service Center - Various
       technical personnel who are responsible for supporting the network, computer, and video
       infrastructure of CET and NTTC. These individuals are also helpdesk support for ensuring
       computers are up to date with software, licenses, maintenance, and are protected from viruses. A
       percentage of the total cost is charged to both Federal and non-Federal grants based on a fair
       allocation.

WJU stated in the cost proposals that these services support both Federal and non-Federal
grants. Thus, they were not specifically identified with a particular sponsored project.
WJU’s cost proposal defined the above service center costs as general administration and
general expenses as well as expenses for departmental administration and sponsored
projects administration. These categories do not meet Circular A-21 requirements for
allocating them as direct costs. Table 1 shows administrative costs WJU listed as direct
costs associated with the noted cost centers.
                                                                                         6


             Table 1. Administrative Costs WJU Identified as Direct Costs
 NTTC (NNX06AE26A) Cost Centers
 Finance Cost                                                           $
 Combined Management Cost                                               $
 NTTC Management Cost                                                   $
 NTTC Institutional Cost                                                $
 NTTC CIS/Technical Cost                                                $
   Subtotal                                                             $2,155,954
 NTTC Phase II (NNX08BA21A) Cost Centers
 Finance Cost                                                             $
 Combined Management Cost                                                 $
 NTTC Management Cost                                                     $
 NTTC Institutional Cost                                                  $
 NTTC CIS/Technical Cost                                                  $
   Subtotal                                                               $656,806
 Micronauts Education Simulator (NNX08AP15G) Cost Centers
 Finance Cost                                                               $
 Combined Management Cost                                                   $
 CET Management Cost                                                        $
 CET Institutional Cost                                                     $
 CET CIS/Technical Cost                                                     $
   Subtotal                                                                 $39,578
 Classroom of the Future (NNX08AJ71A) Cost Centers
 Finance Cost                                                             $
 Combined Management Cost                                                 $
 CET Management Cost                                                      $
 CET Institutional Cost                                                   $
 CET CIS/Technical Cost                                                   $
   Subtotal                                                               $663,102
 Health E West Virginia (NNX08AP69G) Cost Centers
 Finance Cost                                                             $
 Combined Management Cost                                                 $
 NTTC Management Cost                                                     $
 NTTC Institutional Cost                                                  $
 NTTC CIS/Technical Cost                                                  $
   Subtotal                                                               $507,370
     Total                                                              $4,022,810


During our interviews with NASA grant officers assigned to review the WJU agreements,
they stated that they were not sufficiently familiar with the definitions and allocation of
direct and F&A costs to adequately exercise due diligence to ensure proposal costs were
allowable, allocable, and reasonable under Circular A-21. As a result, more than
$4 million was misclassified as direct costs.
                                                                                                     7


Duplicate Costs on WJU’s Micronauts Education Simulator Cost Proposal
The Micronauts Education Simulator cost proposal for agreement NNX08AP15G
contained duplicate labor costs totaling $4,501. Specifically, for three WJU staff
members, labor costs were proposed in two different areas of the proposal. In a table
titled “Full-Time Labor,” 100 percent of their salaries was proposed as labor costs for 1
to 1.5 months of work. That table also contained a line item for $4,501 for CET
Management, with a Job Title of “Various.” We found the breakdown of this line item in
the table for the CET Management Service Center. It named the three individuals as
recipients of the additional salary, an additional 5 percent for two of the staff members
and 35 percent for the other staff member (see Tables 2 and 3).

        Table 2. Full-Time Labor Charges for the Three Staff Members Plus a Combined
                      Labor Charge for a Job Title Identified as “Various”
                                                                         Amount of
                                                                         Time to Be
                                                                        Spent on This
                                 Annual     Percent         Monthly        Project        Year One
           Job Title             Salary    of Salary        Salary        (Months)         Budget
    CET Executive Director   $                100       $                     1.00       $
    Evaluator                $                100       $                     1.50       $
    Simulations Designer     $                100       $                     1.00       $
           a
 Various                                                                                  $ 4,501
a
The WJU proposal identifies the individuals holding the above titles as CET’s “Management Service
Center.”

The monthly salary, based on annual salaries for each of the three, as proposed in the
CET Management Service Center pool (5 percent for two of the individuals and
35 percent for the third), totaled a combined $       . A breakdown of the monthly
salary for the personnel identified as “Various” showed a portion of the salaries for these
same three individuals for the same period. Thus, in its cost proposal, in which WJU
allocates 8.79 percent of labor costs charged to the agreement, WJU allocated
8.79 percent or $4,501 of their annual salary in the CET Management pool to the
Micronauts Education Simulator agreement (see Table 3).
                                                                                              8


            Table 3. Breakdown of Labor Costs for Various/CET Management
                                    Service Center
                                                                   Percent of
                                                                  Cost Charged
                             Annual   Percent       Annual           to the      Total Cost
       Job Title             Salary   in Pool    Salary to pool    Agreement     Allocated
CET Executive Director   $             35        $                    8.79       $
Evaluator                $               5       $                    8.79       $
Simulations Designer     $               5       $                    8.79       $
  Totals                 $                       $                                $4,501


WJU inappropriately proposed more than 100 percent of these individuals’ salaries in the
Micronauts Education Simulator cost proposal. These individuals had dual roles in WJU,
however, labor costs for the multiple roles would appropriately be applied as percentages
within the applicable cost proposals. Labor costs for their responsibilities for work
performed under the Micronauts Education Simulator should have been proposed as
95 percent and 65 percent of their full salary as program operatives, and labor costs for
their responsibilities as executive management in the CET Management Service Center
should have been proposed as 5 percent and 35 percent of their full salary.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response

Recommendation 1. We recommended that the Assistant Administrator for
Procurement provide grant officers training on the cost principles provided in OMB
Circular A-21, “Cost Principles for Educational Institutions,” to ensure they are able to
correctly identify cost categories.
    Management’s Response. The Assistant Administrator for Procurement concurred
    and stated that “[t]raining will be provided to grant officers on the cost principles
    provided in OMB Circular A-21, “Cost Principles for Educational Institutions.”

    Evaluation of Management’s Response. Management’s planned action is
    responsive to the recommendation. The recommendation is resolved and will be
    closed upon completion and verification of management’s corrective action.

Recommendation 2. We also recommended that the Assistant Administrator for
Procurement coordinate with the Department of Health and Human Services, Division of
Cost Allocation, to renegotiate WJU’s F&A rate to include the identified administrative
costs that were inappropriately allocated as direct cost.

    Management’s Response. The Assistant Administrator for Procurement concurred
    and stated that the Department of Health and Human Services would be contacted and
    encouraged to renegotiate the F&A rate “to include the administrative costs that are
    currently being proposed as direct costs.”
                                                                                         9


   Evaluation of Management’s Response. Management’s planned action is
   responsive to the recommendation. The recommendation is resolved and will be
   closed upon completion and verification of management’s corrective action.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. Raymond Tolomeo, Science and
Aeronautics Research Director, Office of Audits, at 202-358-7227.


   (signed) Raymond Tolomeo for
Debra D. Pettitt

2 Enclosures
                               Scope and Methodology
We performed work at NASA Shared Service Center (NSSC), Langley Research Center,
Johnson Space Center, and Headquarters. During our audit work, we reviewed NASA
controls related to the oversight of the grants and cooperative agreements with WJU. We
reviewed NASA and OMB policies and procedures as they relate to the grants and
cooperative agreements NASA has with WJU. We met with WJU personnel to acquire
an understanding of their cost proposals submissions and to obtain supporting
documentation for cost proposals submitted to NASA.

We selected all four centers because of their involvement in the award of the agreements
NASA has with WJU. NSSC has the grant officers who awarded the agreements and the
technical officers for each agreement are located throughout the three additional centers
visited.

We performed this audit from October 2008 through June 2009 in accordance with
generally accepted government auditing standards. We limited our scope to address
NASA’s management of the five active agreements with WJU during the period of our
audit. We did not use computer-processed data to perform this audit.

Review of Internal Controls

We reviewed NASA policies, procedures, and internal controls related to the review of
the cost proposals for grants and cooperative agreements with universities. We identified
the weaknesses discussed in this memorandum. Our recommendations, if implemented,
will improve the review of cost proposals for grants and cooperative agreements.

Prior Coverage

During the last 5 years, the NASA Office of Inspector General (OIG) has issued one
report of particular relevance to the subject of this report. Unrestricted reports can be
accessed over the Internet at
http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html (NASA).

National Aeronautics and Space Administration

“Final Memorandum on the Review of NASA’s “Classroom of the Future” Cooperative
Agreement with Wheeling Jesuit University” (Assignment No. S-05-01300, January 30,
2006)




                                                                                 Enclosure 1
                                                                                 Page 1 of 1
Management’s Comments




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
